F1
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

8.75% to 15.75%

when you open your account, based
on your creditworthiness. This APR will vary with the market based on
the Prime Rate.
Visa Platinum Rewards/Visa Student

10.10% to 17.10%

when you open your account, based
on your creditworthiness. This APR will vary with the market based on
the Prime Rate.
Visa Platinum with Cash Rewards

11.35% to 18.35%

when you open your account, based
on your creditworthiness. This APR will vary with the market based on
the Prime Rate.
Visa Student

10.10% to 17.10%

when you open your account, based
on your creditworthiness. This APR will vary with the market based on
the Prime Rate.
Visa Secured

14.20%
F10
APR for Balance Transfers

This APR will vary with the market based on the Prime Rate.
Visa Platinum

0.00% to 1.99% Introductory APR for a period of 12 billing cycles
based on your creditworthiness.
8.75% to 15.75%
After that your APR will be F13
F14
based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Platinum Rewards

0.00% to 1.99%
Introductory APR for a period of 12 billing cycles
based on your creditworthiness.
10.10% to F18
17.10% based on your
After that your APR will be F17
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Platinum with Cash Rewards

0.00% to 1.99% Introductory APR for a period of 12 billing cycles
based on your creditworthiness.
11.35% to 18.35%
After that your APR will be F21
F22
based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

DWIRF0 (MXC402 CCM002)-e

SEE BACK OF PAGE for more important information about your account.

Visa Student

10.10% to 17.10% when you open your account, based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Secured

APR for Cash Advances

14.20%
F25
This APR will vary with the market based on the Prime Rate.
Visa Platinum
8.75% to 15.75%
when you open your account, based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Platinum Rewards

10.10% to 17.10% when you open your account, based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Platinum with Cash Rewards

11.35% to 18.35% when you open your account, based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Student

10.10% to 17.10% when you open your account, based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.

How to Avoid Paying Interest on Purchases
Minimum Interest Charge
For Credit Card Tips from the Consumer
Financial Protection Bureau

Visa Secured
14.20%
F34
This APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
If you are charged interest, the charge will be no less than F35
$1.00.
The minimum interest charge will be charged on any dollar amount.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

DWIRF0 (MXC402 CCM002)-e

Fees
Set-up and Maintenance Fees
- Annual Fee
- Additional Card Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

None
F36
None
Either $10 or 2% of the amount of each transfer, whichever is greater.

$2.00
F39
1.00%
F40
0.80%
None
F42

of each multiple currency transaction in U.S. dollars
of each single currency transaction in U.S. dollars

$25.00
Up to F43
None
F44
$25.00
Up to F45

How We Will Calculate Your Balance. We use a method called “average daily balance (excluding new purchases).”
Promotional Period for Introductory APR. The Introductory APR for balance transfers will apply to transactions posted
to your account during the first 60 days following the opening of your account.
Effective Date.
2/1/2016
The information about the costs of the card described in this application is accurate as of F46
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Rush Fee
Card Replacement Fee

$25.00
F47
or the amount of the required minimum payment, whichever
is less, if you are one (1) or more days late in making a payment.
$25.00
F48
or the amount of the required minimum payment, whichever
is less.
$25.00
F49
F50
$5.00

DWIRF0 (MXC402 CCM002)-e

